HHS/OIG-Audit--"States' Practices and Perspectives for Assessing Fees for Child Support Services to Applicants Not Receiving Aid to Families with Dependent Children, (A-06-91-00048)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"States' Practices and Perspectives for Assessing Fees for Child Support
Services to Applicants Not Receiving Aid to Families with Dependent Children," (A-06-91-00048)
July 8, 1992
Complete
Text of Report is available in PDF format (876 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of States' and territories
practices in establishing Child Support Enforcement (CSE) fees for non-Aid to Families
with Dependent Children (non-AFDC) cases. Our review showed that revenues raised
from application fees collected for non-AFDC cases did not meet the anticipated
fees and revenues envisioned by the Congressional Budget Office.